Bob Ferguson

ATTORNEY GENERAL OF WASHINGTON
Solicitor General Division
PO Box 40100 • Olympia WA 98504-0100 • (360) 753-6200
April 13, 2021
The Honorable Scott Harris
Clerk of Court
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re:

Belgau v. Inslee
U.S. Supreme Court Docket No. 20-1120

Dear Mr. Harris:
Pursuant to Rule 35, I am notifying you that Dr. Umair Shah has succeeded
Dr. John Weisman as the Secretary of the Washington State Department of Health,
one of the parties to this proceeding in an official capacity. According to Rule 35,
Dr. Shah automatically substitutes for Dr. Weisman and proceedings following the
substitution shall be in Dr. Shah’s name.
Thank you for your attention to this matter.
Sincerely,

Alicia O. Young

Digitally signed by Alicia O.
Young
Date: 2021.04.13 11:34:03
-07'00'

ALICIA O. YOUNG
Deputy Solicitor General
wro

